No. 20-5072

 

J .
Supreme Court at the Gnited States

RODNEY RENARD NEWBERRY, Petitioner,
v.

STATE OF FLORIDA, Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

CERTIFICATE OF SERVICE

I, Carolyn Snurkowski, a member of the Bar of this Court, hereby certify that
on this 14th day of September, 2020, a copy of the Respondent’s Brief in sition
was furnished by United States mail and by email to RICHARD M. BRACRY, III,
Assistant Public Defender of the Office of the Public Defender of the Second Judicial
Circuit of Florida, 301 South Monroe Street, Suite 401, Tallahassee, FL 33301; phone:
(850) 606-1000; email: mose.bracey@flpd2.com.

    

Carolyn M. Snurkowski
Associate Deputy Attorney General of Florida
Counsel of Record

OFFICE OF THE ATTORNEY GENERAL
CAPITAL APPEALS

PL-01, THE CAPITOL

TALLAHASSEE, FL 32399-1050

(850) 414-3300

email: carolyn.snurkowski@myfloridalegal.com

COUNSEL FOR RESPONDENT
